July 31, 2003

WILLIAM ALMARAZ
MANAGER, LOS ANGELES DISTRICT

SUBJECT:        Audit Report –Efficiency of Work Performed by Business Mail Entry Clerks
                Within the Los Angeles District (Report Number AO-AR-03-001)

This report presents the results of our audit of work performed by business mail entry
employees within the Los Angeles District (Project Number 03WG001AO000). This
self-initiated audit was conducted jointly with Pacific Area Finance and Marketing
managers in response to analytical observations we made during recent audits of
business mail entry employees in Denver and the Western Area.

Our audit disclosed that workhours necessary to accept business mailings at the
facilities we reviewed should be reduced. During the audit, Postal Service management
agreed to aggressively reduce business mail entry workhours by 28,800 hours by the
end of fiscal year 2005. We calculated that the financial impact of this reduction in
workhours could produce an estimated cost avoidance of approximately $9.26 million
over 10 years. We recommended the manager of the Los Angeles District reduce hours
and reevaluate staffing needs periodically. Management agreed with our
recommendations and has initiatives in progress addressing the issues identified in this
report. Management’s comments and our evaluation of these comments are included in
the report.

The Office of Inspector General’s (OIG) considers recommendations 1 and 2 significant
and, therefore, requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective action(s) are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information please contact Kim H. Stroud, director, Audit
Operations and Follow-up, at (703) 248-2100 or me at (703) 248-2300.



John M. Seeba
Assistant Inspector General
 for Audit

Attachment

cc: John A. Rapp
    Alfred Iniguez
    Winifred G. Groux
    Marco F. Lari
    Earl L. Self
    Susan M. Duchek
Efficiency of Work Performed by Business Mail Entry                 AO-AR-03-001
 Clerks Within the Los Angeles District


                                   TABLE OF CONTENTS

 Executive Summary                                                   i

 Part l

 Introduction                                                        1

     Background                                                      1
     Objective, Scope, and Methodology                               2
     Prior Audit Coverage                                            3

 Part ll

 Audit Results                                                       5

    Assessment of Employees’ Workhours                               5
        Management’s Actions                                         6
    Recommendations                                                  6
    Management’s Comments                                            7
    Evaluation of Management’s Comments                              7

 Appendix A. Fiscal Years 2001 and 2002 Mailings per Workhour        8
             Comparison for Los Angeles Business Mail Entry Units

 Appendix B. Fiscal Years 2001 and 2002 Employee Complement          9
             Comparison for Los Angeles Business Mail Entry Units

 Appendix C. Los Angeles Bulk Mail Entry Unit Cost Avoidance        10

 Appendix D. Management’s Comments                                  11




                                         Restricted Information
Efficiency of Work Performed by Business Mail Entry                                AO-AR-03-001
 Clerks Within the Los Angeles District


                                   EXECUTIVE SUMMARY
 Introduction                  The Office of Inspector General assessed the efficiency of
                               work performed by business mail entry employees within
                               the Los Angeles District. This self-initiated audit was
                               conducted jointly with Pacific Area Finance and Marketing
                               managers in response to analytical observations we made
                               during recent audits of business mail entry employees in
                               Denver and the Western Area.

 Results in Brief              Our review disclosed that workhours at Los Angeles
                               Business Mail Entry Units were excessive and could be
                               reduced significantly. Although Postal Service policies
                               require the efficient use of workhours, management did not
                               periodically evaluate staffing levels to improve productivity.

                               As a result of our audit, Postal Service management agreed
                               to reduce business mail entry workhours within the
                               Los Angeles District by at least 28,800 hours by the end of
                               fiscal year 2005. This will be done through employee
                               attrition and would raise productivity closer to benchmarked
                               averages for comparable business mail entry units. The
                               financial impact of this workhour reduction could also
                               produce a cost avoidance for the Postal Service of
                               approximately $9.26 million over 10 years, based on Postal
                               Service cash flow methodology.

 Summary of                    We recommended the Los Angeles District manager reduce
 Recommendations               workhours as planned, and periodically evaluate staffing
                               needs.

 Summary of                    Management agreed with our finding and recommendations
 Management’s                  and anticipated that future workhour savings may be
 Comments                      realized prior to target dates as a result of attrition. In
                               general, management asserted that our proposal to reduce
                               workhours was fair and objective. Management’s
                               comments, in their entirety, are included in Appendix D of
                               this report.

 Overall Evaluation of         Management’s actions, taken and planned, should correct
 Management’s                  the issues identified in the report.
 Comments




                                                    i
                                         Restricted Information
Efficiency of Work Performed by Business Mail Entry                                    AO-AR-03-001
 Clerks Within the Los Angeles District


                                             INTRODUCTION
      Background                    Business mail entry units are located in Postal Service
                                    facilities nationwide. Business mail entry unit clerks receive
                                    business mailers' bulk, presorted, and permit mail for
                                    acceptance. Business mail is accepted using dedicated
                                    platform space, office space, and a staging area on the
                                    workroom floor. A business mail entry clerk, using
                                    prescribed acceptance procedures, typically performs
                                    mailing verifications. Verification procedures include
                                    verifying fees and funds on deposit, reviewing contents of
                                    mailpieces, checking of labels and mail make up, and
                                    completing postage verification.

                                    Business mail entry clerks are primarily located at a general
                                    mail facility. However, some clerks are located at the bulk
                                    mail centers, detached mail units, and satellite offices.
                                    These secondary facilities provide limited acceptance and
                                    verification of business mail in support of the central
                                    business mail entry unit located at the general mail facility.

                                    As shown in Diagram A,1 the Los Angeles business mailings
                                    have remained fairly steady, on average, since fiscal year
                                    (FY) 2000.

                                      Diagram A. Total Mailings Accepted.




1
    Web Enterprise Information System as of accounting period 7, FY 2003.



                                                          1
                                               Restricted Information
Efficiency of Work Performed by Business Mail Entry                                 AO-AR-03-001
 Clerks Within the Los Angeles District


                               As shown in Diagram B, actual workhours have remained
                               close to planned workhours for the Los Angeles District
                               despite significant fluctuations over time.

                               Diagram B. Actual and Planned Business Mail Entry (Labor
                               Distribution Code 79) Workhours.




   Objective, Scope,           The objective of our audit was to assess the efficiency of
   and Methodology             work performed by business mail entry clerks within the
                               Los Angeles District. To assess the efficiency of work
                               performed, we observed business mail entry unit operations
                               and analyzed business mail volumes and workhours. In
                               addition, we benchmarked the Los Angeles units’ revenues
                               and mailings with comparable business mail entry units.

                               Business mail entry units in Los Angeles are located at a
                               central acceptance site in the general mail facility, satellite
                               locations, detached mail units, and a bulk mail center. We
                               reviewed satellite locations at Barrington, Bicentennial, the
                               San Francisco Airport, International Service Center, and
                               Alameda. We also reviewed detached mail units located at
                               two customer sites.




                                                    2
                                         Restricted Information
Efficiency of Work Performed by Business Mail Entry                                AO-AR-03-001
 Clerks Within the Los Angeles District



                               We relied on Postal Service operational systems, including
                               the National Workhour Reporting System, Standard Field
                               Accounting System Unit Revenue Data, Web Enterprise
                               Information System, and the Permit System to perform our
                               analysis of mailings and workhours. We did not test the
                               validity of controls over these systems. However, we
                               checked the accuracy of data by confirming our analysis
                               and results with Postal Service managers. Nothing came to
                               our attention to suggest that data used was unreliable.
                               Therefore, we believe the computer-generated data was
                               sufficiently reliable to support the opinions, conclusions, and
                               recommendations in this report.

                               This audit was conducted from February 2003 through
                               July 2003 in accordance with generally accepted
                               government auditing standards, and included such tests of
                               internal controls as were considered necessary under the
                               circumstances. We discussed our conclusions and
                               observations with appropriate management officials and
                               included their comments, where appropriate.

   Prior Audit                 We have issued two prior audit reports on the efficiency of
   Coverage                    business mail entry units.

                               Work Performed by Business Mail Entry Employees in the
                               Colorado Wyoming Performance Cluster (Report Number
                               CQ-AR-02-001, dated September 26, 2002), disclosed that
                               many Denver Bulk Mail Center and Denver General Mail
                               Facility business mail entry employees were not needed to
                               accept business mailings. As a result, management could
                               save an estimated $1 million annually. We recommended
                               management oversee the consolidation of business mail
                               entry operations and reduce staff as planned, and
                               reevaluate staffing to determine if further staff reductions
                               are necessary. Management agreed and the actions taken
                               and planned are responsive to the issues identified in the
                               report.




                                                    3
                                         Restricted Information
Efficiency of Work Performed by Business Mail Entry                              AO-AR-03-001
 Clerks Within the Los Angeles District



                               Work Performed by Business Mail Entry Employees in the
                               Seattle, Minneapolis, and Des Moines Bulk Mail Centers
                               (Report Number CQ-AR-03-001, dated March 28, 2003),
                               disclosed that workhours necessary to accept business
                               mailings at these facilities should be reduced. As a result,
                               management could save an estimated $588,730 through the
                               end of FY 2005 when its planned workhour reductions are
                               fully implemented. We recommended senior plant
                               managers of the Seattle, Minneapolis, and Des Moines Bulk
                               Mail Centers reduce hours, reevaluate staffing needs
                               periodically, and ensure that appropriately trained personnel
                               perform acceptance functions. Management agreed and
                               the actions taken and planned are responsive to the issues
                               identified in the report.




                                                    4
                                         Restricted Information
Efficiency of Work Performed by Business Mail Entry                                                    AO-AR-03-001
 Clerks Within the Los Angeles District


                                              AUDIT RESULTS
      Assessment of                    Our review disclosed that workhours at the Los Angeles
      Employees’                       business mail entry units were excessive in relation to the
      Workhours                        number of business mailings processed. Postal Service
                                       policies2 require that business mail entry units ensure the
                                       efficient use of workhours. For FYs 2001 and 2002,
                                       mailings per workhour for the Los Angeles Business Mail
                                       Entry Units we reviewed were markedly below benchmarked
                                       units. Postal Service management agreed that at least
                                       28,800 workhours could be eliminated based on business
                                       mail volumes, benchmark data, and observations of
                                       business mail operations.

                                       The following chart depicts average productivity levels for
                                       Los Angeles Business Mail Entry Units we reviewed and
                                       benchmark sites:

                                                                                      MAILINGS PER      MAILINGS
                                                             LABOR                     WORKHOUR        PER WORK-
                                                         DISTRIBUTION NUMBER            FOR LOS         HOUR FOR
                                                  FISCAL    CODE 79     OF              ANGELES        BENCHMARK
                                                   YEAR WORKHOURS MAILINGS              DISTRICT          SITES
                                       Los
                                       Angeles 2001          96,745       101,098          1.04             1.44
                                               2002          97,730       102,179          1.05             2.00
                                       Growth
                                       Rate                      1.02%        1.07%

                                       FYs 2001 and 2002 mailings per workhour for the
                                       Los Angeles District were 1.04 and 1.05 while the
                                       averages for comparable3 business mail entry units were
                                       1.44 and 2.0, respectively. Appendix A highlights how the
                                       Los Angeles Business Mail Entry Units we reviewed
                                       compared to other similar sites for mailings per workhour.

                                       The Los Angeles Business Mail Entry Units maintained the
                                       largest number of employees when compared to
                                       comparable sites for FYs 2001 and 2002. While not unusual
                                       by itself, there is cause for concern when productivity
                                       measures are below expectations. Appendix B highlights
                                       how the Los Angeles Business Mail Entry Units we reviewed
                                       compared to other similar sites for employee complements.



2
    Handbook DM-109, Business Mail Acceptance, Chapter 2.
3
    Comparative sites have revenue greater than $125 million and mailings within +/- 30 percent of Los Angeles.



                                                           5
                                                Restricted Information
Efficiency of Work Performed by Business Mail Entry                                                     AO-AR-03-001
 Clerks Within the Los Angeles District




                                   To corroborate our analysis, observations of the
                                   Los Angeles Business Mail Entry Units revealed that
                                   employees had excessive idle time. The Office of Inspector
                                   General (OIG) agrees with Postal Service managers that
                                   this is attributed to:

                                        •    A misalignment between acceptance hours of
                                             operation and mail arrival times.

                                        •    Low mailing volumes relative to the number of
                                             workhours.

                                        •    Managers not evaluating and adjusting staffing levels
                                             based on mail volumes.

                                   We believe that excessive hours, unchecked, contribute to
                                   poor performance as demonstrated above and clerks
                                   experiencing prolonged downtime.

    Management’s Actions           To improve productivity, Postal Service management agreed
                                   to reduce business mail entry workhours in the Los Angeles
                                   District by at least 28,800 hours by the end of FY 2005. This
                                   will be done through employee attrition. While holding mail
                                   volume constant, these actions would significantly raise the
                                   Los Angeles District’s mailings per hour within benchmarked
                                   averages and would save the Postal Service approximately
                                   $9.264 million over the next 10 years. Appendix C details
                                   the financial impact of workhour reductions for the units we
                                   reviewed.

    Recommendations                To improve business mail entry productivity, we recommend
                                   the manager, Los Angeles District:

                                   1. Reduce business mail entry hours as planned.

                                   2. Periodically evaluate staffing to determine if further
                                      workhour reductions are necessary based on workload.




4
 Based on Postal Service’s methodology, the cost avoidance was projected over 10 years using Postal Service’s
assumptions for annual workhours, the business mail entry clerk labor rate, and the latest labor escalation factor.



                                                          6
                                               Restricted Information
Efficiency of Work Performed by Business Mail Entry                             AO-AR-03-001
 Clerks Within the Los Angeles District



 Management’s                  Management agreed with our finding and recommendations
 Comments                      and anticipated that future workhour savings may be
                               realized prior to target dates as a result of attrition. In
                               general, management asserted that our proposal to reduce
                               workhours was fair and objective.

 Evaluation of                 Management’s actions, taken and planned, should correct
 Management’s                  the issues identified in the report.
 Comments




                                                    7
                                         Restricted Information
Efficiency of Work Performed by Business Mail Entry                                                                                    AO-AR-03-001
 Clerks Within the Los Angeles District


                                               APPENDIX A
                         FYS 2001 AND 2002 MAILINGS PER WORKHOUR COMPARISON
                              FOR LOS ANGELES BUSINESS MAIL ENTRY UNITS

                                                                 FY 2001 Mailings per Workhour

                         FT LAUDERDALE
                              SANTA ANA
                         SALT LAKE CITY
                              COLUMBUS
                              SAN DIEGO
                          JACKSONVILLE
                              CINCINNATI
 Comparative Sites




                                ST LOUIS
                                SEATTLE
                                 ST PAUL
                               HOUSTON
                                PHOENIX
                             CLEVELAND
                                ATLANTA
                             DES MOINES
                            MINNEAPOLIS
                                  TAMPA
                           LOS ANGELES                                                    1.04
                                CHICAGO
                                 DENVER
                           INDIANAPOLIS

                                       0.00      0.20   0.40       0.60     0.80    1.00   1.20       1.40     1.60     1.80     2.00   2.20      2.40    2.60
     Average = 1.44                                 Comparative sites have revenue > $125 million and mailings within +- 30% of Los Angeles mailings.




                                                                 FY 2002 Mailings per Workhour


                              FARMINGDALE
                                   CHICAGO
                                SANTA ANA
                            FT LAUDERDALE
     Comparative Sites




                            SALT LAKE CITY
                                 SAN DIEGO
                                 CINCINNATI
                                     TAMPA
                                 COLUMBUS
                                  ATLANTA
                                   SEATTLE
                                    PHOENIX
                                  HOUSTON
                               MINNEAPOLIS
                                MILWAUKEE
                              INDIANAPOLIS
                              LOS ANGELES                                 1.05

                                              0.00   0.40      0.80    1.20   1.60    2.00     2.40    2.80    3.20    3.60     4.00    4.40    4.80     5.20
                             Average = 2.00                 Comparative sites have revenue > $125 million and mailings w ithin +- 30% of Los Angeles




                                                                                   8
                                                                        Restricted Information
Efficiency of Work Performed by Business Mail Entry                                                                     AO-AR-03-001
 Clerks Within the Los Angeles District


                                                             APPENDIX B
                                        FYS 2001 AND 2002 EMPLOYEE COMPLEMENT COMPARISON
                                             FOR LOS ANGELES BUSINESS MAIL ENTRY UNITS


                                                                             FY 2001 Complements

                                           LOS ANGELES
                                            MINNEAPOLIS
                                                CHICAGO
                                                 DENVER
                                                ATLANTA
                    Comparative Sites




                                                PHOENIX
                                                  TAMPA
                                               HOUSTON
                                             DES MOINES
                                                SEATTLE
                                                 ST PAUL
                                           INDIANAPOLIS
                                             CLEVELAND
                                              CINCINNATI
                                                ST LOUIS
                                              SAN DIEGO
                                              COLUMBUS
                                              SANTA ANA
                                         SALT LAKE CITY
                                        FT LAUDERDALE
                                          JACKSONVILLE

                                                           0       10            20            30        40        50           60

                                                                              Number of Employee Complements




                                                                             FY 2002 Complements

                                            LOS ANGELES
                                            MINNEAPOLIS
                                                CHICAGO
                                              MILWAUKEE
Comparative Sites




                                                 ATLANTA
                                                HOUSTON
                                                 PHOENIX
                                            INDIANAPOLIS
                                                   TAMPA
                                                 SEATTLE
                                               SAN DIEGO
                                              CINCINNATI
                                              COLUMBUS
                                              SANTA ANA
                                          SALT LAKE CITY
                                         FT LAUDERDALE
                                           FARMINGDALE

                                                               0        10            20            30        40        50             60

                                                                                Number of Employee Complements



                                                                                         9
                                                                              Restricted Information
Efficiency of Work Performed by Business Mail Entry                                                           AO-AR-03-001
 Clerks Within the Los Angeles District


                                                   APPENDIX C
         LOS ANGELES BULK MAIL ENTRY UNIT COST AVOIDANCE


                                                 Yearly             Fully Loaded
                      Year                      Workhour            Labor Rate/Hr                   Cost Avoidance
                                                Reduction

        FY 2003                                    7,200                 $ 36.73                       $ 2,521,038
        (Effective Accounting Period 9)
        FY 2004                                    9,000                 $ 38.53                       $ 4,278,598
        (Effective Accounting Period 1)
        FY 2005                                   12,600                 $ 40.42                       $ 6,283,548
        (Effective Accounting Period 1)
        Totals (10 full fiscal years)             28,800                                              $ 13,083,184

                                                                 Present Value @                      $ 9,256,376
                                                                 5%, 10 Years




SOURCE

Workhour Reductions were based on the Postal Service Los Angeles Area Action Plan.

ASSUMPTIONS

    •    Labor rates were based on the Postal Service 2003 Published Rates for a PS-06 Business Mail Entry Unit Technician.
    •    Escalation Factor is 4.9 percent..
    •    USPS Cost of Borrowing is 5.0 percent.


FUNDS PUT TO BETTER USE – Funds that can be used more efficiently by implementing recommended
actions.




                                                            10
                                                  Restricted Information
Efficiency of Work Performed by Business Mail Entry               AO-AR-03-001
 Clerks Within the Los Angeles District


                   APPENDIX D. MANAGEMENT’S COMMENTS




                                                   11
                                         Restricted Information
Efficiency of Work Performed by Business Mail Entry               AO-AR-03-001
 Clerks Within the Los Angeles District




                                                   12
                                         Restricted Information
